U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Domonic Devarrise Usher v. United States, No. 20-6272
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 5,
2020, and placed on the docket on November 10, 2020. The government’s response is now due,
after one extension, on January 11, 2021. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including January 13, 2021, within which to file a
response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6272
USHER, DOMONIC DEVARRISE
USA

ERIC JOSEPH BRIGNAC
ASSISTANT FEDERAL PUBLIC DEFENDER
150 FAYETTEVILLE STREET
SUITE 450
RALEIGH, NC 27601
919-856-4236
ERIC_BRIGNAC@FD.ORG

